No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
RACHEL MAE SKIDMORE,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

INDEX TO APPENDICES
Appendix A

Judgment and Opinion of Fifth Circuit

Appendix B

Judgment and Sentence of the United States District Court for the Northern
District of Texas

APPENDIX A

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-11053
Summary Calendar

FILED
May 21, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff−Appellee,
versus
RACHEL MAE SKIDMORE,
Defendant−Appellant.

Appeal from the United States District Court
for the Northern District of Texas
No. 4:11-CR-60-1

Before DAVIS, SMITH, and HIGGINSON, Circuit Judges.
PER CURIAM: *
Rachel Skidmore appeals the revocation of her supervised release (”SR”)
and the resulting 24-month imprisonment. Skidmore’s SR was revoked per
18 U.S.C. § 3583(g), which requires the mandatory revocation of SR and
imposition of imprisonment for defendants found to have committed certain
Pursuant to 5TH CIRCUIT RULE 47.5, the court has determined that this opinion
should not be published and is not precedent except under the limited circumstances set forth
in 5TH CIRCUIT RULE 47.5.4.
*

No. 19-11053
offenses, including possession of a controlled substance.
For the first time on appeal, Skidmore maintains that § 3583(g) is unconstitutional in light of United States v. Haymond, 139 S. Ct. 2369 (2019),
because it does not require a jury determination of guilt beyond a reasonable
doubt. As Skidmore concedes, review of this unpreserved issue is for plain
error, which requires her to show, inter alia, (1) an error that has not been
affirmatively waived and (2) that is clear or obvious. See Puckett v. United
States, 556 U.S. 129, 135 (2009).
Haymond addressed the constitutionality of § 3583(k), and the plurality
opinion, 139 S. Ct. at 2382 n.7, explicitly disclaimed any view on the constitutionality of § 3583(g). In the absence of precedent from the Supreme Court or
this court extending Haymond to § 3583(g), there is no clear or obvious error.
See Puckett, 556 U.S. at 135; United States v. Evans, 587 F.3d 667, 671 (5th
Cir. 2009).
For the first time on appeal, Skidmore contends that the district court
plainly erred in failing to consider the advisory policy statement of U.S.S.G.
§ 7B1.4 before imposing sentence. The record does not support that assertion.
The probation officer’s petition for offender under supervision set forth
§ 7B1.4’s recommended imprisonment range of 8 to 14 months. At the revocation hearing, the court expressly referenced the petition for offender under
supervision filed by the probation officer, supporting the conclusion that the
court reviewed the petition and implicitly considered the policy statement and
the advisory range discussed therein. Skidmore has not shown any error,
much less one that was clear or obvious. See United States v. Warren, 720 F.3d
321, 332−33 (5th Cir. 2013).
AFFIRMED.

2

APPENDIX B

Case 4:11-cr-00060-P Document 105 Filed 09/19/19

Page 1 of 3 PageID 368

U.S. DISTRICT COURT
NORTHERN DISTRICT OF TEXAS

FILED

IN THE UNITED STATES DISTRIC COUR~
NORTHERN DISTRICT OF TEX S
FORT WORTH DIVISION

SEP 1 9 2l'19

CLERK. U.S. DISTRICT COURT

UNITED STATES OF AMERICA

BY----~~~----­
Dcputy

§
§

vs.

§

NO. 4:11-CR-060-A(01)

§

RACHEL MAE SKIDMORE

§

JUDGMENT OF REVOCATION AND SENTENCE
Came on to be heard, as contemplated by Fed. R. Crim. P.
32.1, the motion of United States of America to revoke the term
of supervised release imposed on defendant, RACHEL MAE SKIDMORE.
After having considered the grounds of the government's motion,
defendant's admissions, the evidence, the character witness
statement, argument of counsel, and defendant's statement, the
court has determined that the term of supervised release imposed
on defendant should be revoked and that defendant should be
sentenced to a term of imprisonment of 24 months.
The court finds and concludes that:
(a)

Defendant was given, in a timely manner, written

notice of her alleged violations of the term of supervised
release upon which the motion to revoke is basedi
(b)

The motion to revoke the term of supervised

release was served on defendant in a timely manner prior to
the hearingi

Case 4:11-cr-00060-P Document 105 Filed 09/19/19

(c)

Page 2 of 3 PageID 369

There was a disclosure to defendant, and her

attorney, of the evidence against defendant; and
(d)

The hearing was held within a reasonable time.

Other findings and conclusions of the court were stated by
the court into the record at the hearing. The court adopts all
such findings and conclusions as part of this judgment.
In reaching the conclusions and making the determinations
and rulings announced at the hearing, and as stated in this
judgment, the court considered all relevant factors set forth in
18 U.S.C.

§

3553(a) that are proper for consideration in a

revocation context.
The court ORDERS, ADJUDGES, and DECREES that the term of
supervised release, as provided by the judgment of revocation and
sentence imposed and signed February 23, 2017

("the underlying

judgment"), be, and is hereby, revoked; and
The court further ORDERS, ADJUDGES, and DECREES that
defendant, RACHEL MAE SKIDMORE, be, and is hereby, committed to
the custody of the United States Bureau of Prisons to be
imprisoned for a term of 24 months.
The defendant is remanded to the custody of the United
States Marshal.

2

Case 4:11-cr-00060-P Document 105 Filed 09/19/19

Page 3 of 3 PageID 370

The date of imposition of the sentence provided by this
judgment is September 19, 2019.
SIGNED September 19, 2019.

Personal information about the defendant is set forth on the
attachment to this Judgment of evocation and Sentence.

3

